GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

December 9, 2019
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-670, Arnold Fleck v. Joe Wetch, et al.
Dear Mr. Harris,
I am writing on behalf of all respondents to request an extension of time in which to file
the opposition to the petition for a writ of certiorari in this case. The response is currently due,
with no extensions, on December 26, 2019. We request an extension of 38 days, through Monday,
February 3, 2020. An extension of that length will permit counsel for respondents to review and
respond to the several amici who plan to file briefs in support of the petition, and is necessary due
to the press of other business before this Court and other courts.
Please let me know if you require any further information. Thank you very much for your
time and assistance.
Very truly yours,

Sarah E. Harrington

cc: Petitioner’s counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

